U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 22, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Michael Baker v. United States of America, No. 19-667
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 21,
2019. The government’s response is now due, after one extension, on January 27, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 26, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0667
BAKER, MICHAEL
USA

DENNIS P. RIORDAN
RIORDAN & HORGAN
1611 TELEGRAPH AVE.
SUITE 806
OAKLAND, CA 94612
415-431-3475
DENNIS@RIORDAN-HORGAN.COM
ALEXANDRA A.E. SHAPIRO
SHAPIRO ARATO BACH
500 FIFTH AVE.
40TH FLOOR
NEW YORK, NY 10110
212-257-4880

